September 10, 2020
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
RE: Calvin McMillan v. Alabama, No. 20-193
Dear Mr. Harris:
I serve as counsel for Calvin McMillan, Petitioner in the above-captioned case. By this
letter, Petitioner consents to the filing of amicus briefs in support of either or neither party.
Additionally, I am authorized to state that counsel for Respondent consents to the filing of
amicus briefs in support of either or neither party. Along with this letter, I have attached
electronic correspondence confirming Respondent’s consent.
Thank you for your assistance.

Respectfully submitted,
/s/ Michael Admirand
Michael Admirand
cc: Edmund G. LaCour Jr.

Enclosure

From:
To:
Cc:
Subject:
Date:
Attachments:

LaCour, Edmund
Mike Admirand
Patrick Mulvaney
Re: McMillan v. Alabama, No. 20-193
Thursday, September 10, 2020 8:46:40 AM
image001.png
image002.png
image003.png
image004.png
image005.png
image006.png

Mike,
Thanks for your email. Alabama grants blanket consent to the filing of amicus briefs. Thanks again.
Best,
Eddie
Edmund LaCour
Solicitor General
Office of Alabama Attorney General Steve Marshall
Direct: 334-353-2196
Fax: 334-353-8400

On Sep 10, 2020, at 7:27 AM, Mike Admirand <madmirand@schr.org> wrote:
﻿
This message has originated from an External Source. Please use proper judgment and caution when opening
attachments, clicking links, or responding to this email.

Eddie,
I hope you are doing well. I saw that you entered your appearance in McMillan v. Alabama, No. 20-193, and
that you requested an extension. In the event the Court asks our position, we’ll make clear that we have no
objection.
Before you entered your appearance yesterday, I sent the email below to James Houts. When you have a
minute, would you mind letting me know if you would grant blanket consent to the filing of amicus briefs in
support of either or neither party? If so, I’ll provide that information to the Court.
Thank you,
Mike
From: Mike Admirand
Sent: Wednesday, September 9, 2020 2:20 PM
To: Houts, James <James.Houts@AlabamaAG.gov>
Subject: McMillan v. Alabama, No. 20-193
Hi James:
I hope you are well. It is our understanding that there will be a few amicus briefs in support of Mr. McMillan’s
petition, including from LDF and the Innocence Project. We are going to provide the Clerk with our blanket
consent to the filing of amicus briefs in support of either or neither party, and I am writing to see if you will
provide the same. If so, I can contact the Clerk with your response to this email so that they have that
information on file.

Please let me know if you have any questions.
Thanks,
Mike

<image001.png>

Michael Admirand
Staff Attorney Southern Center for Human Rights
Capital Litigation Unit
Phone (404) 688-1202 Fax (404) 688-9440
Address 60 Walton Street NW, Atlanta, GA 30303-2149
Email madmirand@schr.org Website www.schr.org
Connect with us!

<image002.png> <image003.png> <image004.png> <image005.png> <image006.png>

IMPORTANT: This message is confidential. It may also be privileged or otherwise protected by work product immunity or
other legal rules. If you have received it by mistake, please let us know by e-mail reply and delete it from your system; you
may not copy this message or disclose its contents to anyone. Please send us by fax any message containing deadlines as
incoming e-mails are not screened for response deadlines. The integrity and security of this message cannot be guaranteed
on the Internet.

Please consider the environment before printing.

Confidentiality Notice: The information contained in this email and the documents attached hereto contain
confidential information intended only for the use of the intended recipients. If the reader of the message is not the
intended recipient, you are hereby notified that any dissemination, distribution or copying of the information
contained herein is strictly prohibited. If you have received this communication in error, please immediately notify
me by reply email.

